No._________________
______________________________
OCTOBER TERM 2018
_______________________________

IN THE
SUPREME COURT OF THE UNITED STATES

BALDASSARE AMATO,
Applicant,
v.
UNITED STATES OF AMERICA,
Respondent
__________________________________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
_________________________________________

APPLICATION TO THE HONORABLE JUSTICE RUTH BADER GINSBURG
FOR EXTENSION OF TIME TO FILE A PETITION
FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SECOND CIRCUIT

* * * * * * * * * * * *

To the Honorable Justice Ruth Bader Ginsburg, Associate Justice of the
Supreme Court of the United States and Circuit Justice for the United States Court
of Appeals for the Second Circuit:

Baldassare Amato, by undersigned counsel, pursuant to Supreme Court Rules
13.5, 21, 22, 29, 30.2, 30.3, 33.2 respectfully requests that this Court grant him a 60day extension of time to file his petition for a writ of certiorari.
The Petition will challenge the decision of the United States Court of Appeals
for the Second Circuit in Amato v. United States, 763 Fed. Appx. 21, 2019 U.S. App.
LEXIS 6375, 2019 WL 974675 (2d Cir., February 27, 2019, a copy of which is attached.
This Court has jurisdiction under 28 U.S.C. § 1254(1).
In support of this application, Applicant states:
1.

The United States Court of Appeals for the Second Circuit entered its decision

in this case on February 27, 2019 [Attachment “A”] and denied rehearing and
rehearing en banc on May 20, 2019. [Attachment “B”]

Without an extension, the

petition for writ of certiorari would be due to be filed on August 19, 2019. With the
extension, the petition for writ of certiorari will be due to be filed on October 18, 2019.
RELEVANT BACKGROUND
2.

This case is a serious candidate for review. Applicant was convicted of two

murders, alleged to have been committed in furtherance of a racketeering enterprise.
He has at all times absolutely maintained his innocence. He was represented at pretrial, trial, post-trial, sentencing, and on appeal by a lawyer who at all times operated
under an actual conflict of interests that adversely affected his representation and Mr.
Amato’s Fifth and Sixth Amendment rights. The lawyer’s multiple conflicts and
multiple examples of overwhelmingly adverse effect on Mr. Amato’s defense are the
clearest examples of conflicts that adversely affected a criminal defendant undersigned
1

counsel has encountered in over twenty-five years litigating conflict cases around the
country.
3.

Applicant’s defense lawyer also represented a man who was alleged to be the

leader of the charged racketeering enterprise at issue, Mr. Amato’s co-conspirator, Mr.
Amato’s business partner, and who should have been the primary exculpatory and
impeachment witness for the defense. This other client had become a cooperator with
the government when the lawyer took on Mr. Amato’s case.
Applicant’s defense counsel twice notified the court of his conflicts and twice
advised the court that a hearing was required to apprise Mr. Amato of the conflict, the
potential consequences of proceeding with conflicted counsel, and his options.
Government counsel advised the court that Mr. Amato’s defense attorney
absolutely had to be disqualified based on his conflict of interests and that defense
counsel’s other client did not waive his privilege with the attorney.
However, the court never conducted any sort of hearing into the matter, kept Mr.
Amato wholly in the dark about the conflicts, and the conflicted lawyer went on to
represent Mr. Amato at all stages of the proceedings below.
4.

The examples of plausible alternative strategies inherently or directly in conflict

for the lawyer filled the record. Consider just this one example: The government had
only one witness who attributed one of the two murders to Mr. Amato. The entire basis
for the witness’s testimony with respect to the murder was a conversation he claimed
to have had with the defense lawyer’s other client, then the head of the enterprise (and
now a cooperating witness). However, defense counsel was provided with notes from
2

this other client of his, in which the former boss (now cooperator) unequivocally denied
that any such conversation took place and completely put the lie to the government’s
witness.
Inexplicably, without consulting with Mr. Amato, defense counsel stipulated
with the government to refrain from mentioning or using his other client’s notes which
would unequivocally have demonstrated that the only witness against Mr. Amato
attributing the murder to him had completely fabricated the story. The lawyer could
not and did not call his other client to testify.
When asked by the court to provide an affidavit explaining why he did not use
the exculpatory and impeaching notes and why he did not call his other client to
testify, defense counsel simply advised the court that he could not recall any reason.
5.

Without conducting any evidentiary hearing or even oral argument, the district

court denied Mr. Amato’s §2255 motion, Amato v. United States, 2017 U.S. Dist. LEXIS
53144, 2017 WL 1293801 (E.D.N.Y., April 7, 2017); but it granted a Certificate of
Appealability on the ineffective assistance of counsel claims. Amato v. United States,
2017 U.S. Dist. LEXIS 218035 (E.D.N.Y., June 7, 2017).
6.

The Court of Appeals entered a Summary Order affirming the district court’s

denial of the §2255 motion. The Summary Order cannot be reconciled with this Court’s
primary decisions on conflicts of interests. See e.g., Cuyler v. Sullivan, 446 U.S. 335
(1980), Holloway v. Arkansas, 435 U.S. 475 (1978), Mickens v. Taylor, 535 U.S. 162
(2002), Wood v. Georgia, 250 U.S. 261 (1981), Glasser v. U.S., 315 U.S. 60 (1942) or

3

even with the well settled law in the Second Circuit on the subject. See e.g, U.S. v.
Schwarz, 283 F.3d 76 (2d Cir. 2002), Winkler v. Keane, 7 F.3d 304 (2d Cir. 1993), U.S.
v. Malpiedi, 62 F.3d 465 (2d Cir. 1995), U.S. v. Levy, 25 F.3d 146 (2d Cir. 1994), U.S.
v. Kliti, 156 F.3d 150 (2d Cir. 1998), U.S. v. Iorizzo, 782 F.2d 52 (2d Cir. 1986), U.S. v.
Curcio, 680 F.2d 881 (2d Cir. 1982), U.S. v. Cancilla, 725 F.2d 867 (2d Cir. 1984), Ciak
v. U.S., 59 F.3d 296 (2d Cir. 1995).
The denial of an evidentiary hearing in this case is irreconcilable with well
settled authority from the Second Circuit and from courts around the country. See e.g.,
Raysor v. U.S., 647 F.3d 491 (2d Cir. 2011), Quinones v. U.S., 637 Fed. Appx. 42 (2d
Cir. 2016), Puglisi v. U.S., 586 F.3d 209 (2d Cir. 2009), Pham v. U.S., 317 F.3d 178 (2d
Cir. 2003), Pavel v. Hollins, 261 F.3d 210 (2d Cir. 2001), Lindstadt v. Keane, 239 F.3d
191 (2d Cir. 2001), Goldberg v. Tracy, 366 Fed. Appx. 198 (2d Cir. 2010), and Curshen
v. U.S., 596 Fed. Appx. 14 (2d Cir. 2015); Christopher v. U.S., 605 Fed. Appx. 533, 537538 (6th Cir. 2015); Smith v. Wainwright, 737 F.2d 1036, 1037 (11th Cir. 1984); Perillo
v. Johnson, 205 F.3d 775, 782 (5th Cir. 2000); Maiden v. Bunnell, 35 F.3d 477, 481 (9th
Cir. 1994).
7.

There are multiple exceptionally important constitutional issues in this case

that this Court left open in Mickens v. Taylor, 535 U.S. 162 (2002), that regularly occur
in criminal cases around the country and around which a mature and deep split of
authority has developed.
8.

For example, this Court in Mickens expressly left as an “open question” the

4

issue of whether the Cuyler v. Sullivan, 446 U.S. 335 (1980) analytical framework for
conflict of interests type ineffective assistance of counsel claims applies only to
concurrent representation conflicts or to successive representation conflicts as well.
Mickens, 535 U.S. at 176. This has split courts within Circuits and between Circuits.
Compare, e.g., Houston v. Schomig, 533 F.3d 1076, (9th Cir. 2008) ("Supreme Court . .
. has left open the question whether conflicts in successive representation that affect
an attorney's performance require a showing of prejudice for reversal."); Alberni v.
McDaniel, 458 F.3d 860, 873 (9th Cir. 2006) (same); with Lewis v. Mayle, 391 F.3d 989
(9th Cir. 2004) (court applies Sullivan prejudice standard to conflict based on
successive representation); Woods v. Spearman, 2014 U.S. Dist. LEXIS 101529, *25,
2014 WL 3689363 (9th Cir., July 24, 2014)(describing the split of authority). Compare
Moss v. U.S., 323 F.3d 445 (6th Cir. 2003)(questioning application of Cuyler analysis to
successive representation) with Harris v. Carter, 337 F.3d 758, 762 (6th Cir.
2003)(Cuyler analysis applies to all conflict claims);
This case provides the perfect vehicle for answering the question and, indeed,
highlights the split even within the Second Circuit. Compare, Amato, Attachment ‘A”
at 6 (opining that courts treat the analysis of concurrent representation conflicts
differently from successive representation conflicts) with Tueros v. Greiner, 343 F.3d
587, 593 (2d Cir. 2003)(Sotomayor, J.), cert. denied by, Tueros v. Phillips, 2004 U.S.
LEXIS 3485 (May 17, 2004).
9.

Similarly, there is an important open question from Mickens as to what

5

triggers automatic reversal arising from a conflict. In Mickens, this Court expressly
noted that while the automatic reversal of a conviction for a conflict of interests,
without demonstrating adverse effect is the rare case, the concept still applies in a case
in which the lower court fails to inquire into a conflict and has the defendant go
forward with conflicted counsel, notwithstanding a timely objection. Mickens, 535 U.S.
at 168.
The instant case deepens the conflict over this issue. As noted, here defense
counsel apprised the court of the conflict and twice insisted that a hearing was
required to apprise the defendant of his rights and options. Additionally, government
counsel expressly demanded that defense counsel be disqualified based on his conflict
and advised the court that his other client, by then a government cooperator, did not
waive his privilege with the attorney. Government counsel conceded below, [A164],
that prior to Mickens Mr. Amato’s judgment of conviction and sentence would have to
have been automatically reversed due to the clear conflict and the trial court’s failure
to fulfill even its inquiry duty after being made aware of the conflict by both the
defense and the government. See, e.g., U.S. v. Levy, 25 F.3d 146, 153-154 (2d Cir.
1994); Ciak v. U.S., 59 F.3d 296, 303 (2d Cir. 1995)(citing cases).
10.

Supreme Court Rule 13.5 permits a Justice of this Court, “for good cause,” to

extend the time to file a petition for a writ of certiorari for a period not exceeding sixty
(60) days. This application for an extension of time is being electronically filed and
timely filed with the Clerk by mail pursuant to Rule 29.2, ten (10) days before the
petition is due. Rules 13.5, 30.2.
6

REASONS THE EXTENSION IS NEEDED
11.

Undersigned counsel respectfully submits that there is good cause to justify the

requested extension of time. Undersigned counsel is a solo practitioner with no
assistant or office staff. Undersigned counsel recently suffered a heart attack and is
undergoing a course of cardiac rehabilitation several days each week and is not yet
able to work a full day, making it difficult, without extensions of time to deal with this
unexpected event, to meet all outstanding obligations to the courts before which the
undersigned has cases pending.
12.

The undersigned currently has a very heavy docket of cases in various stages of

litigation in courts around the country, with pending obligations in those cases.
These include, in the next several days and weeks, the filing of a brief in this Court,
and briefs in the United States Court of Appeals for the Eleventh Circuit, the United
States Court of Appeals for the Sixth Circuit, as well as filings in United States
District Courts for the Southern District of New York and the New York Supreme
Court, and others. The undersigned also serves as pro bono lead counsel in three
capital cases and a non-capital murder case.
13.

In addition, one of the country’s leading law school Supreme Court clinics has

expressed an interest in working with the undersigned on the Petition in this case, in
light of the importance of the issues and the position taken by the court below; but
school is still out of session for the Summer and the requested extension is required in
order to enable the professors and students in the clinic to reconvene for the coming
academic year and work on the Petition if, as anticipated based on discussions to date,
7

the clinic will be working with the undersigned on it.
CONCLUSION
Wherefore, based on all of the foregoing and in order to afford undersigned
counsel the opportunity to best apprise this Court of the relevant facts and law in this
exceptionally important case, implicating fundamental constitutional rights and a clear
split of authority, as well as the opportunity to answer an important, frequently
recurring open question, Petitioner respectfully requests that an order be entered
extending his time to petition for certiorari by 60 days, rendering his petition due on
or before Friday, October 18, 2019.
Respectfully submitted,
s/David Schoen
David Schoen
Attorney at Law
2800 Zelda Road, Suite 100-6
Montgomery, AL 36106
Tel.: 334-395-6611
Fax: 917-591-7586
Email: DSchoen593@aol.com
Schoenlawfirm@gmail.com
Counsel for Petitioner

8

Certificate of Service
I, David Schoen, hereby certify that on August 8, 2019,

a copy of this

Application for Extension of Time to File a Petition for Writ of Certiorari in the above
entitled case was mailed to counsel for Respondent herein, listed below, by U.S. mail,
first class postage pre-paid, to follow, in compliance with Rule 29(3). I further certify
that all parties required to be served have been served:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001.
Counsel for the Respondent

s/David Schoen
David Schoen
Attorney at Law
2800 Zelda Road, Suite 100-6
Montgomery, AL 36106
Tel.: 334-395-6611
Fax: 917-591-7586
Email: Dschoen593@aol.com
Schoenlawfirm@gmail.com

9

ATTACHMENT “A”

Case 17-1782, Document 150, 02/27/2019, 2506013, Page1 of 9

17‐1782
Amato v. United States

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST
CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION
“SUMMARY ORDER”). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 27th day of February, two thousand
nineteen.
PRESENT: DENNIS JACOBS,
RICHARD J. SULLIVAN,
Circuit Judges,
EDWARD R. KORMAN,*
District Judge.
‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐X
BALDASSARE AMATO,
Petitioner‐Appellant,
‐v.‐

17‐1782

Judge Edward R. Korman, of the United States District Court for the Eastern
District of New York, sitting by designation.
*

1

Case 17-1782, Document 150, 02/27/2019, 2506013, Page2 of 9

UNITED STATES OF AMERICA,
Respondent‐Appellee.
‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐X
FOR APPELLANT:

David I. Schoen, Montgomery, AL.

FOR APPELLEE:

Andrey Spektor, Assistant United
States Attorney (Susan Corkery,
Assistant United States Attorney, on
the brief), for Richard P. Donoghue,
United States Attorney for the
Eastern District of New York,
Brooklyn, NY.

Appeal from a judgment of the United States District Court for the Eastern
District of New York (Garaufis, J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED,
ADJUDGED AND DECREED that the judgment of the district court be
AFFIRMED.
Petitioner‐Appellant Baldassare Amato appeals from the judgment of the
United States District Court for the Eastern District of New York (Garaufis, J.)
dismissing his petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2255
(the “petition”). Amato contends that his trial counsel was conflicted and
ineffective, and that the district court abused its discretion in failing to conduct a
hearing. We assume the parties’ familiarity with the underlying facts, the
procedural history, and the issues presented for review. For the reasons
explained below, we now affirm.
In January 2004, Amato was indicted along with 27 other individuals for
criminal activities of the Bonanno crime family. Amato was charged with three
counts related to illegal gambling enterprises and a single count of racketeering
conspiracy that was based on four predicate acts: the murder of Sebastiano
2

Case 17-1782, Document 150, 02/27/2019, 2506013, Page3 of 9

DiFalco (and conspiracy to do so), the murder of Robert Perrino (and conspiracy
to do so), illegal gambling activities, and conspiracy to commit robbery.
Amato proceeded to trial in the Eastern District of New York (Garaufis, J.)
alongside two co‐defendants. He was initially represented by counsel
appointed under the Criminal Justice Act, but later privately retained Diarmuid
White, who represented him before and during the trial, at sentencing, and on
appeal. Together with his notice of appearance, White filed a letter notifying
the district court of a potential conflict of interest resulting from his previous
representation of Joseph Massino, a former “boss” of the Bonanno family.
White’s representation of Massino lasted approximately eight months and
involved providing support for Massino’s primary defense counsel in
preparation for Massino’s trial. White assured the court that he recalled no
material information, confidences, or secrets from his representation of Massino,
but nevertheless stated his intention to engage co‐counsel to cross‐examine
Massino if he were to testify against Amato at trial. White argued that there
was no “serious potential conflict” requiring his disqualification, “and likely no
potential conflict at all.” Special Appendix (“SA”) at 5. White further advised
that Amato was prepared to waive any potential conflict of interest at a Curcio
hearing.
In a second letter to the court, White stated that since Amato could not
afford to retain co‐counsel, White would cross‐examine Massino himself if
necessary, steering clear of any cross‐examination based on his privileged
communications with Massino. And since any potential conflict of interest
remained waivable, Amato remained “prepared to make all appropriate Curcio
waivers.” SA at 7.
The court did not hold a Curcio hearing, and during the six‐week trial,
Massino was not called as a witness. All three defendants were convicted by a
jury on all counts, with a specific jury finding that the government had proven
Amato guilty of the predicate acts listed in the racketeering conspiracy count.
Amato was sentenced principally to life imprisonment, and his conviction was
affirmed by this Court on direct appeal. United States v. Amato, 306 F. App’x
630, 634‐35 (2d Cir. 2009) (summary order).
3

Case 17-1782, Document 150, 02/27/2019, 2506013, Page4 of 9

The instant petition, filed in February 2011, asserts nine challenges to the
conviction and requests discovery and an evidentiary hearing. On April 5,
2017, the district court denied discovery and an evidentiary hearing, and
dismissed the petition in full. The court subsequently issued a certificate of
appealability as to Amato’s claim of ineffective assistance of counsel;
accordingly, only that claim is before this Court. See Fed. R. App. P. 22(b).
On appeal, Amato argues that he was denied his Sixth Amendment right to
effective assistance of counsel because White operated under an actual conflict of
interest that adversely affected his performance, and otherwise failed to provide
effective assistance at trial and on appeal. Amato additionally claims that the
district court erred in failing to hold an evidentiary hearing on his ineffective
assistance claims.
“In the § 2255 context, this Court reviews ‘factual findings for clear error’
and ‘questions of law de novo.’” Triana v. United States, 205 F.3d 36, 40 (2d Cir.
2000) (quoting Scanio v. United States, 37 F.3d 858, 859 (2d Cir. 1994)). “The
question of whether a defendant’s lawyer’s representation violates the Sixth
Amendment right to effective assistance of counsel is a mixed question of law and
fact that is reviewed de novo.” Id. (quoting United States v. Blau, 159 F.3d 68, 74
(2d Cir.1998)).
1.
The Sixth Amendment right to counsel includes a right to
conflict‐free representation. See Wood v. Georgia, 450 U.S. 261, 271 (1981)
(citing Cuyler v. Sullivan, 446 U.S. 335 (1980) and Holloway v. Arkansas, 435 U.S.
475 (1978)). Nevertheless, the burden of proof rests on Amato to show a conflict
of interest by a preponderance of the evidence. Triana, 205 F.3d at 40 (citing
Harned v. Henderson, 588 F.2d 12, 22 (2d Cir. 1978)).
Amato first argues that he is entitled to automatic reversal of his
conviction because the district court failed to take the required measures when it
had notice of White’s potential conflict. Specifically, Amato argues that the
district court had an obligation to inquire further into the potential conflict;
ensure that Amato understood the potential risks of White’s representation; and
deal with the conflict by appointing independent counsel to advise Amato
4

Case 17-1782, Document 150, 02/27/2019, 2506013, Page5 of 9

regarding the conflict, or protect Amato by other means.
However, a “trial court’s failure to inquire into a potential conflict of
interest on the part of the defendant’s attorney, about which the court knew or
reasonably should have known, does not automatically require reversal of the
conviction.” United States v. Blount, 291 F.3d 201, 211 (2d Cir.2002) (citing
Mickens v. Taylor, 535 U.S. 162, 172 (2002)). Instead, “[t]he constitutional
question must turn on whether trial counsel had a conflict of interest that
hampered the representation, not on whether the trial judge should have been
more assiduous in taking prophylactic measures.” Id. at 212 (quoting Mickens,
535 U.S. at 179 (Kennedy, J., concurring)). “As the Sixth Amendment
guarantees the defendant the assistance of counsel, the infringement of that right
must depend on a deficiency of the lawyer, not of the trial judge. There is no
reason to presume this guarantee unfulfilled when the purported conflict has
had no effect on the representation.” Id. (quoting Mickens, 535 U.S. at 179
(Kennedy, J., concurring)). A narrow exception requiring automatic reversal
exists “only where defense counsel is forced to represent codefendants over his
timely objection, unless the trial court has determined that there is no conflict.”
Mickens, 535 U.S. at 168 (citing Holloway, 435 U.S. at 488).
White certainly did not object to the representation. To the contrary, he
affirmatively argued that any potential conflict was waivable, and repeatedly
affirmed Amato’s willingness to waive. Moreover, White did not represent
Amato and Massino concurrently; his relatively brief representation of Massino
terminated more than two years before he was retained by Amato. Automatic
reversal is therefore unwarranted here. Mickens, 535 U.S. at 168.
Amato nevertheless argues that the writ should be granted because White
had an actual conflict of interest that adversely affected his performance as
counsel. A defendant claiming ineffective assistance of counsel on the basis of
an actual conflict of interest must demonstrate that the conflict “affected
counsel’s performance.” Id. at 171. In order to demonstrate that a conflict
adversely affected White’s representation, Amato must show that at least some
plausible defense strategy was forgone as a consequence of White’s conflict of
interest. United States v. Schwarz, 283 F.3d 76, 92 (2d Cir. 2002). And the
5

Case 17-1782, Document 150, 02/27/2019, 2506013, Page6 of 9

plausibility of an alternative strategy must rise above mere speculation. See
Eisemann v. Herbert, 401 F.3d 102, 108 (2d Cir. 2005).
According to Amato, the main government witness against him was Sal
Vitale, an underboss of the Bonanno family, who testified about statements about
Amato made to Vitale by Massino‐‐Amato’s co‐conspirator. Amato argues that
White’s dual loyalties to Massino and Amato created the actual conflict, and that
the conflict prevented him from adequately challenging that testimony by, inter
alia, using allegedly exculpatory evidence, calling Massino as a defense witness,
and otherwise employing defense strategies that could conflict with Massino’s
interests.
Although there is a “high probability of prejudice arising from multiple
concurrent representation[,] . . . [n]ot all attorney conflicts present comparable
difficulties”; therefore, “the Federal Rules of Criminal Procedure treat concurrent
representation and prior representation differently.” Mickens, 535 U.S. at 175.
It is unclear under governing caselaw whether an actual conflict existed here
based on successive representation, particularly given White’s disclaimer of
memory of confidential information from his representation of Massino.
In any event, Amato has failed to show that White’s alleged conflict caused
him to forgo a plausible defense strategy. On the contrary, White vigorously
cross‐examined Vitale at trial, including by impeaching his testimony against
Amato with testimony he gave in Massino’s trial. White went on to emphasize
the inconsistencies in Vitale’s testimony during summation.
As to White’s decision to forgo calling Massino as a witness, it is
“speculation to suggest that his testimony would have been exculpatory.” See
Eisemann, 401 F.3d at 108. Indeed, given that Massino, the former boss of the
Bonanno family, had become a government cooperator by the time of Amato’s
trial, his testimony was much more likely to be damaging to Amato. And while
Amato makes much of Massino’s notations on FBI 302 reports (“302s”)‐‐which
included handwritten notes that Vitale’s statements were “all lies” and that
Massino knew “nothing about [Amato’s crimes]”‐‐there is absolutely no evidence
in the record to suggest that Massino‐‐who by the time of Amato’s trial had
6

Case 17-1782, Document 150, 02/27/2019, 2506013, Page7 of 9

become a cooperating witness‐‐would testify in conformity with those
pre‐cooperation notes. Nor did White shy away from eliciting testimony at trial
regarding Massino’s crimes and general untrustworthiness.
While the district court assumed, without deciding, that Amato alleged
plausible, alternative strategies, we see nothing in the record to suggest that such
plausible alternative options existed. See Eisemann, 401 F.3d at 110 (dismissing
28 U.S.C. § 2254 petition where there was “nothing in the record to suggest that
[counsel’s] conflict caused him to forgo a plausible defense theory”).
2.
Amato argues that White provided ineffective assistance of counsel
for additional reasons that are unrelated to the alleged conflict of interest.
When “assessing a claim that a lawyer’s representation did not meet the
constitutional minimum, we indulge a strong presumption that counsel’s
conduct fell within the wide range of professional assistance.” Lynch v. Dolce,
789 F.3d 303, 311 (2d Cir. 2015) (internal quotation marks and alterations
omitted). This strong presumption may be overcome only by establishing that:
(1) “counsel’s representation fell below an objective standard of reasonableness”;
and (2) “any deficiencies in counsel’s performance [were] prejudicial to the
defense.” Strickland v. Washington, 466 U.S. 668, 688, 692 (1984).
To demonstrate White’s allegedly ineffective assistance, Amato points to
the precluded testimony of three witnesses who Amato contends would have
testified about prior statements by Vitale that were inconsistent with his trial
testimony. While the district court precluded this testimony because White
failed to lay a proper foundation on cross‐examination for Vitale’s alleged prior
inconsistent statements, the district court acknowledged that White reasonably
expected the government to call these three witnesses in its case‐in‐chief. Given
this “good‐faith” expectation, White’s failure to lay a proper foundation for
Vitale’s inconsistent statements during cross‐examination did not fall below an
“objective standard of reasonableness.” Strickland, 466 U.S. at 688.
Additionally, Amato argues that White improperly failed to introduce
Massino’s handwritten notes on the 302s to defend against the murder charges.
But it was not objectively unreasonable for White not to call Massino, since
7

Case 17-1782, Document 150, 02/27/2019, 2506013, Page8 of 9

calling him as a witness would have subjected Amato to the reasonable
likelihood that Massino‐‐by now a cooperator‐‐would corroborate, not
contradict, Vitale’s statements. See, e.g., Greiner v. Wells, 417 F.3d 305, 323 (2d
Cir. 2005) (“[D]eference is particularly apt where, as here, an attorney decides not
to call an unfriendly witness to the stand and has precious little means of
determining how the witness might testify.”).
The evidence that White allegedly failed to obtain and use is described in
Amato’s brief in the sketchiest of detail. In any event, the district court
evaluated it when considering Amato’s petition, and found that it was
cumulative, immaterial, or otherwise insufficient to show that White was
objectively unreasonable in failing to introduce it at trial. We identify no error
in the district court’s conclusions.
Therefore, because Amato has failed to show that his counsel’s
representation fell below an objective standard of reasonableness, his ineffective
assistance claim fails, and we need not evaluate the prejudice issue under
Strickland. 466 U.S. at 697.
3.
Finally, Amato argues that the district court erred in denying an
evidentiary hearing with regard to his ineffective assistance claims. We review
a district court’s decision as to what kind of hearing, if any, is appropriate on a
§ 2255 motion for abuse of discretion. Gonzalez v. United States, 722 F.3d 118,
131 (2d Cir. 2013). “A court abuses its discretion when it takes an erroneous
view of the law, makes a clearly erroneous assessment of the facts, or renders a
decision that cannot be located within the range of permissible decisions.” Id.
“[W]hen the judge who tried the underlying proceedings also presides
over a § 2255 motion, a full‐blown evidentiary hearing may not be necessary,”
Raysor v. United States, 647 F.3d 491, 494 (2d Cir. 2011) (citing Puglisi v. United
States, 586 F.3d 209, 214‐15 (2d Cir. 2009)), and our precedent “permits a ‘middle
road’ of deciding disputed facts on the basis of written submissions,” id.
(quoting Pham v. United States, 317 F.3d 178, 184 (2d Cir. 2003)).

8

Case 17-1782, Document 150, 02/27/2019, 2506013, Page9 of 9

The district court determined that, given the existing record and White’s
sworn statement to the court addressing the petition’s claims, there was a
sufficient basis to find that Amato failed to assert a plausible claim for ineffective
assistance of counsel. In particular, White signed a sworn declaration stating
that he could not recall why he decided not to call Massino, minimizing any
potential benefits of holding an evidentiary hearing. The court therefore did
not abuse its discretion when it concluded that Amato failed to meet the required
showing for an evidentiary hearing.
We have considered Amato’s remaining arguments and conclude they are
without merit. Accordingly, the judgment of the district court is AFFIRMED.

FOR THE COURT:
CATHERINE O’HAGAN WOLFE, CLERK

9

ATTACHMENT “B”

Case 17-1782, Document 171, 05/20/2019, 2568000, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
20th day of May, two thousand nineteen.
________________________________________
Baldassare Amato,
Petitioner - Appellant,
v.

ORDER

United States of America,

Docket No: 17-1782

Respondent - Appellee.
_______________________________________
Appellant, Baldassare Amato, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

